APPENDICES

1a
APPENDIX A
NOT RECOMMENDED FOR FULL-TEXT PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Case No. 17-3628
Filed May 28, 2019
EDWIN ARTHUR AVERY,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.
On Appeal from the United States District Court
for the Southern District of Ohio
BEFORE: COOK, and LARSEN, Circuit Judges.1
COOK, Circuit Judge. Edwin Arthur Avery challenges his enhanced Armed Career Criminals Act
(“ACCA”) sentence, alleging that two of his three predicate convictions no longer support the enhancement
after Johnson v. United States, 135 S. Ct. 2551 (2015)
(“Johnson II”). The district court barred this successive habeas petition on procedural grounds, then went
on to decide that even if not barred, the petition would
fail. Because Avery presented his current Johnson II
claim in a previous application, we REMAND with instructions to dismiss the petition for lack of jurisdiction.
1

The third member of this panel, Judge Damon J. Keith, died
on April 28, 2019. This decision is entered by the quorum of the
panel. 28 U.S.C. § 46(d).

2a
I.
In 2007, a grand jury indicted Avery on one count
of possessing a firearm as a convicted felon. As relevant here, the indictment listed three Ohio felony predicates: (1) a 2005 robbery conviction, (2) a 2005 felonious
assault conviction, and (3) a 2002 robbery conviction.
Avery pleaded guilty, acknowledging that his robbery
and felonious assault convictions were “violent felonies”
qualifying him for the ACCA’s mandatory—minimum
sentence of fifteen years. He also waived his right to
appeal his conviction and “any right to bring a post—
conviction collateral attack on the conviction or sentence.” The court then imposed the agreed—upon fifteen—year sentence. When Avery later attempted to
appeal his sentence, this court affirmed, upholding the
plea waiver. United States v. Avery, No. 08-4271 (6th
Cir. Aug. 12, 2009).
Over six years later, Avery challenged his sentence
in a 28 U.S.C. § 2255 motion, asserting that Johnson II
invalidated his ACCA enhancement. The district court
dismissed that petition and declined to issue a certificate of appealability (“COA”). Avery did not appeal.
Instead, three months later, Avery sought and received authorization from this court to file this second § 2255 petition on his Johnson II claim. Again, the
district court dismissed the petition. This time, however, the court granted a COA on the question of “whether a person in Avery’s position is entitled to the benefit
of the doubt about whether an ambiguous prior conviction was under a statute that qualifies under [the] ACCA after Johnson [II].” This court later expanded the
COA to consider, among other things, whether any
procedural issues might bar Avery’s Johnson II claim.

3a
II.
We first examine whether we have jurisdiction over
Avery’s petition. “Without jurisdiction the court cannot
proceed at all in any cause. Jurisdiction is power to declare the law, and when it ceases to exist, the only function remaining to the court is that of announcing the fact
and dismissing the cause.” SteelCo. v. Citizens for a
Better Env’t 523 U.S. 83,94 (1998) (quoting Ex parte
McCardle, 74 U.S. (7 Wall.) 506, 514 (1868)). Even if the
parties fail to address jurisdiction in their briefs, “we
are under an independent obligation to police our own
jurisdiction.” Bonner v. Perry, 564 F.3d 424, 426 (6th
Cir. 2009) (quoting S.E.C. v. Basic Energy & Affiliated
Res., Inc., 273 F.3d 657, 665 (6th Cir. 2001)).
The district court here lacked jurisdiction to decide
Avery’s second § 2255 petition, and so do we. Two statutes bear on whether the district court could properly
exercise jurisdiction. Section 2255(h) governs and requires that “[a] second or successive motion must be
certified as provided in section 2244.” 28 U.S.C.
§ 2255(h). And when we then look to § 2244, it instructs
that “[a] claim presented in a second or successive habeas corpus application under section 2254 that was
presented in a prior application shall be dismissed.” 28
U.S.C. § 2244(b)(1). Importantly, both the Supreme
Court and this court describe § 2244(b) as jurisdictional.
See Panetti v. Quarterman, 551 U.S. 930, 942 (2007);
Post v. Bradshaw, 422 F.3d 419, 425 (6th Cir. 2005).
Other circuits agree. See In re Bradford, 830 F.3d 1273,
1278 (11th Cir. 2016) (“Because § 2244(b)(1) is jurisdictional, we necessarily lack jurisdiction to hear a second
or successive habeas petition premised exclusively on a
claim that was presented in a prior application.”); Adams v. Thaler, 679 F.3d 312, 322-23 (5th Cir. 2012);
Freeman v. Chandler, 645 F.3d 863, 867 (7th Cir. 2011).

4a
The district court interpreted § 2244(b)(1) to apply
only to state prisoners because it cross-references
§ 2254, the section of the habeas statute addressing
state prisoners.
Thus, the court concluded that
§ 2244(b)(1) did not bar Avery—a federal prisoner—
from pursuing a second § 2255 petition. But though
§ 2244(b)(1) explicitly references § 2254, our cases teach
that its bar on repetitive filings extends to federal prisoners’ § 2255 motions. Charles v. Chandler, 180 F.3d
753, 758 (6th Cir. 1999) (“[Petitioner] is not entitled to
file a successive § 2255 motion to vacate because he
seeks permission to file the same claims that have already been denied on the merits. See § 2244(b)(1).”).
We are bound by that holding. Indeed, every circuit to
consider the issue has concluded that § 2255 incorporates § 2244(b)(1). See White v. United States, 371 F.3d
900, 901 (7th Cir. 2004) (“It would be odd if Congress
had intended that a federal prisoner could refile the
same motion over and over again without encountering
a bar similar to that of section 2244(b)(1), and we have
therefore held that ‘prior application’ in that section includes a prior motion under section 2255.” (citing Taylor v. Gilkey, 314 F.3d 832, 836 (7th Cir. 2002))); In re
Baptiste, 828 F.3d 1337,1339-40 (11th Cir. 2016); Green
v. United States, 391T.3d 101,102 n.l (2d Cir. 2005).
Because Avery presented his current Johnson II
claim in a previous application, we dismiss his petition
for lack of jurisdiction. See 28 U.S.C. § 2244(b)(1);
Charles, 180 F.3d at 758. In the absence of jurisdiction,
we do not reach the merits of his petition. See Steel
Co., 523 U.S. at 94.
III.
We REMAND with instructions to dismiss the petition for lack of jurisdiction.

5a
APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION AT DAYTON
Case No. 3:07-cr-205
Filed May 4, 2017
UNITED STATES OF AMERICA,
Plaintiff,
v.
EDWIN ARTHUR AVERY,
Defendant.
On Appeal from the United States District Court
for the Southern District of Ohio
DECISION AND ENTRY ADOPTING REPORT AND
RECOMMENDATIONS, (ECF 62), OVERRULING
PETITIONER’S OBJECTIONS TO MAGISTRATE’S
REPORT AND RECOMMENDATIONS, (ECF 63),
DENYING MOTION FOR RECONSIDERATION. (ECF
60). THE INSTANT CASE REMAINS TERMINATED,
HOWEVER, THE CLERK IS TO ISSUE A
CERTIFICATE OF APPEALABILITY ON WHETHER A
PERSON IN DEFENDANT’S POSITION IS ENTITLED
TO THE BENEFIT OF THE DOUBT ABOUT
WHETHER AN AMBIGUOUS PRIOR CONVICTION
WAS OR WAS NOT UNDER A STATUTE THAT
QUALIFIES UNDER ACCA AFTER JOHNSON.
On September 29, 2016, the Sixth Circuit granted
Defendant Edwin Arthur Avery permission to file a
second or successive motion challenging the determina-

6a
tion of his sentence and transferred the case to this
Court. In re: Edwin Arthur Avery, Case No. 16-3566
(6th Cir. Sept. 29, 2016)(unpublished; copy at ECF 47.)
Avery’s Second Motion to Vacate was opened that
same day. (ECF 48.)
On December 28, 2016, Magistrate Michael R. Merz
filed a Report and Recommendations urging that
Avery’s Second Motion to Vacate (ECF 48) be dismissed with prejudice and a certificate of appealability
be denied. (ECF 56.) On January 20, 2017, the Court
adopted the Report and Recommendations, (ECF 57),
and terminated the case on February 25, 2016. (3:16cv-002.)
On February 13, 2017, Avery filed a Motion for Reconsideration, (ECF 60), asking the Court to revisit its
decision that Avery’s second Motion to Vacate under 28
U.S.C. § 2255 be dismissed with prejudice. On March 1,
2017, Magistrate Judge Merz filed a Report and Recommendations on Motion to Amend the Judgment,
(ECF 62), recommending that Avery’s Motion for Reconsideration, (ECF 60) be denied but that he be
granted a certificate of appealability permitting him to
proceed on appeal in forma pauperis on whether a person in Avery’s position is entitled to the benefit of the
doubt about whether an ambiguous prior conviction
was under a statute that qualifies under ACCA after
Johnson. (Id.) On March 17, 2017, Avery objected to
this Report and Recommendation. (ECF 63.)
As required by 28 U.S.C. § 636(b) and Federal Rule
of Civil Procedure 72(b), the Court has made a de novo
review of the record in this case, taking into consideration Defendant’s objections. Upon said review, the
Court finds that Plaintiffs objections, (Docs. 63), to Report and Recommendations, (ECF. 62), are not well

7a
taken and they are hereby OVERRULED. Wherefore, the Court ADOPTS IN FULL the Magistrate
Judge’s Report and Recommendations. (ECF 62.) The
Motion for Reconsideration, (ECF 60) is hereby DENIED. Because the resolution of Avery’s motion
would be debatable among reasonable jurists, Avery is
GRANTED A CERTIFICATE OF APPEALABILITY permitting him to proceed on appeal in forma
pauperis on whether a person in Avery’s position is entitled to the benefit of the doubt about whether an ambiguous prior conviction was under a statute that qualifies under ACCA after Johnson. The case remains
CLOSED in all other respects.
DONE and ORDERED this Thursday, May 4,
2017.

9a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION AT DAYTON
Case No. 3:07-cr-205
(Also 3:16-cv-002)
UNITED STATES OF AMERICA,
Plaintiff,
v.
EDWIN ARTHUR AVERY,
Defendant.
District Judge Thomas M. Rose
Magistrate Judge Michael R. Merz
Filed March 1, 2017
REPORT AND RECOMMENDATIONS
ON MOTION TO AMEND THE JUDGMENT

This § 2255 case is before the Court on Defendant’s
Motion to Alter, Amend, or Reconsider Judgment
Denying Motion under 28 U.S.C. § 2255 (ECF No. 60).
This proceeding is Mr. Avery’s second § 2255 motion,
on which he was granted permission to proceed by the
Sixth Circuit (ECF No. 47).
Timeliness of Objections
After the Motion was filed, the Court found
Mr. Avery had adequately proved that his receipt of
the Report and Recommendations (the “Report,” ECF

10a
No. 56) was delayed by the institutional mail at his
place of imprisonment to such an extent that he could
not have filed objections within the seventeen days allowed by Fed. R. Civ. P. 72. Therefore the Magistrate
Judge recommends that the Court should reconsider its
final decision by applying to the recently filed Objections (ECF No. 60-3) the same standard it would have
applied if the objections had been filed within that time.
That is to say, the Magistrate Judge’s findings of fact
should be set aside if clearly erroneous and his conclusions of law should be reviewed de novo, per Fed. R.
Civ. P. 72(b).
The Report recommends dismissal of the Second
§ 2255 Motion (ECF No. 48) with prejudice on three
separate bases:
1. Mr. Avery waived collateral review of his conviction and sentence in the Plea Agreement (Report,
ECF No. 56, at PageID 274-78).
2. The claim made in this Second § 2255 Motion is
the same claim made in Mr. Avery’s First § 2255 Motion (ECF No. 41) which the Court dismissed with
prejudice (ECF No. 46) and which Mr. Avery did not
appeal. His Second § 2255 Motion is therefore barred
by the law of the case (ECF No. 56, at PageID 273-740).
3. In any event, Mr. Avery’s Second § 2255 Motion is without merit because he still has three predicate convictions which qualify under the Armed Career
Criminal Act (“ACCA”) without reference to the residual clause declared unconstitutional in Johnson v. United States, 135 S. Ct. 2551 (2015).
On February 15, 2017, the Magistrate Judge notified the United States Attorney of his intention to recommend consideration of Mr. Avery’s Objections (ECF

11a
No. 60-3, PageID 296-304) on the merits and advised
the Government that its time to respond would expire
on February 27, 2017. That time has expired and no
response has been filed. The Court accordingly proceeds to consideration of the merits of the objections.
Analysis
Waiver of Collateral Review
The Report found that Mr. Avery had waived collateral review of his conviction (Report, ECF No. 56,
PageID 274, citing Plea Agreement, ECF No. 21, PageID 39, ¶ 8). The waiver formed one basis for recommending dismissal of the First § 2255 Motion. Avery
never objected and never appealed from dismissal. The
Report recommends dismissal of the Second § 2255 Motion on the same basis and because that basis has become the law of the case (ECF No. 56, PageID 275).
Avery tried to overcome that waiver and prior decision by claiming he is “actually innocent” of violating
the Armed Career Criminal Act (“ACCA”) and therefore this Court lacked jurisdiction to sentence him under that Act (Second Motion, ECF No. 48, PageID 196).
The Report discusses reasons why the authorities he
cites do not show lack of jurisdiction (ECF No. 56,
PageID 276-78).
Avery objects that, in light of his actual innocence
of a crime carrying a maximum sentence in excess of
ten years, “neither a waiver, the law of the case doctrine, or the fact that the petitioner raise[d] the exact
same claim in a previous § 2255 petition, prevents this
court from hearing this claim.” (Objections, ECF No.
60-3, PageID 299.)

12a
He relies in the first place on McQuiggin v. Perkins, 569 U.S. ___, 133 S. Ct. 1924, 185 L. Ed. 2d 1019
(2013). In McQuiggin, the Supreme Court held
[A]ctual innocence, if proved, serves as a gateway through which a petitioner may pass
whether the impediment is a procedural bar, as
it was in Schlup and House, or, as in this case,
expiration of the statute of limitations. We
caution, however, that tenable actual-innocence
gateway pleas are rare: “[A] petitioner does
not meet the threshold requirement unless he
persuades the district court that, in light of the
new evidence, no juror, acting reasonably,
would have voted to find him guilty beyond a
reasonable doubt.” Schlup, 513 U. S., at 329,
115 S. Ct. 851, 130 L. Ed. 2d 808; see House, 547
U.S., at 538, 126 S. Ct. 2064, 165 L. Ed. 2d. 1
(emphasizing that the Schlup standard is “demanding” and seldom met). And in making an
assessment of the kind Schlup envisioned, “the
timing of the [petition]” is a factor bearing on
the “reliability of th[e] evidence” purporting to
show actual innocence. Schlup, 513 U. S., at
332, 115 S. Ct. 851, 130 L. Ed. 2d. 808.
133 S. Ct. at 1928. The holding in McQuiggin was that
actual innocence could overcome the bar of the statute
of limitations. In addition, the Court did cite historical
uses of the actual innocence gateway exception to avoid
procedural bars that existed prior to adoption of the
AEDPA in 1996. 133 S. Ct. at 1931-32.
Nothing in McQuiggin suggests “actual innocence”
will excuse a bargained-for waiver in a plea agreement.
For that proposition, Avery relies on United States v.

13a
Terrell, 2016 U.S. Dist. LEXIS 153552 (E.D. Wa 2016).1
The Washington court wrote regarding waivers:
As part of Mr. Terrell’s plea agreement, Terrell
voluntarily and expressly waived his “right to
file any post-conviction motion attacking his
conviction and sentence, including a motion
pursuant to 28 U.S.C. § 2255,” except one based
upon ineffective assistance of counsel. A defendant may waive his right to collaterally attack a conviction and sentence. See United
States v. Leniear, 574 F.3d 668, 672 & n.3 (9th
Cir. 2009). Courts recognize strong public policy considerations justify the enforcement of
plea agreements containing knowing and voluntary waivers of statutory rights of appeal or
collateral attack because such “waivers usefully
preserve the finality of judgments and sentences imposed pursuant to valid plea agreements.”
United States v. Anglin, 215 F.3d 1064, 1066
(9th Cir. 2000). Subsequent changes in the law,
which do not render the sentence unconstitutional, do not undercut the validity of a collateral attack waiver. See United States v. Bibler,
495 F.3d 621, 624 (9th Cir. 2007). A waiver will
not be invalidated merely because unanticipated events occur in the future. See e.g., U.S. v.
Eastwood, 148 Fed. Appx. 589 (9th Cir.
2005)(waiver enforceable and resentencing not
warranted, despite changes in sentencing law
brought about by U.S. v. Booker holding the
1

There is a typographical error in Mr. Avery’s citation. The
case which actually appears at 2016 U.S. Dist. LEXIS 152552 in
the LEXIS database is El-Saba v. University of South Alabama, a
civil case from the Southern District of Alabama.

14a
Guidelines were advisory and not mandatory);
U.S. v. Morgan, 406 F.3d 135 (2d Cir. 2005),
cert denied 546 U.S. 980, 126 S. Ct. 549, 163 L.
Ed. 2d 465 (2005)(same); c.f. Adesina v. United
States, 461 F.Supp.2d 90, 96 (E.D.N.Y. 2006)
(“Under the well-settled law of the Second Circuit, a valid waiver of the right to appeal or
otherwise challenge a sentence is enforceable
as to subsequent changes in the law, even as to
constitutional arguments, that were not anticipated at the time the waiver was made.”).
However, all federal courts agree that waivers
are not ironclad. In the Ninth Circuit, a valid
waiver “will not apply” if “the sentence violates
the law.” United States v. Bibler, 495 F.3d 621,
624 (9th Cir. 2007). “A sentence is illegal if it
exceeds the permissible statutory penalty for
the crime or violates the Constitution.” Id. The
Ninth Circuit has held that if Johnson nullifies
the residual clause of the Career Offender
Guidelines, sentences rendered pursuant to that
clause are likely unconstitutional and would be
“illegal,” and thus waivers in plea agreements
cannot bar collateral attacks on that basis.
United States v. Torres, 828 F.3d 1113, 1125 (9th
Cir. 2016). Accordingly, the court must determine whether the sentence “violates the law” to
determine whether the waiver applies.
Id. at *15-16. Thus the Washington court did not hold
that “actual innocence” would avoid a waiver, but that a
waiver would not bar consideration of a sentence made
unconstitutional by Johnson, i.e., a sentence based on
use of the residual clause made unconstitutional by
Johnson. Avery’s sentence was not based on use of the
residual clause. Instead, he was found to have violated

15a
the ACCA by virtue of his prior convictions for robbery
on two occasions and felonious assault. These prior
convictions are analyzed further below.
Furthermore, Avery has not presented evidence of
“actual innocence” as that term is used in habeas corpus
jurisprudence. As the Sixth Circuit has held:
[I]f a habeas petitioner “presents evidence of innocence so strong that a court cannot have confidence in the outcome of the trial unless the
court is also satisfied that the trial was free of
nonharmless constitutional error, the petitioner
should be allowed to pass through the gateway
and argue the merits of his underlying claims.”
Schlup v. Delo, 513 U.S. 298, 316 (1995). “Thus,
the threshold inquiry is whether “new facts
raise[] sufficient doubt about [the petitioner’s]
guilt to undermine confidence in the result of
the trial.” Id. at 317. To establish actual innocence, “a petitioner must show that it is more
likely than not that no reasonable juror would
have found petitioner guilty beyond a reasonable doubt.” Id. at 327. The Court has noted that
“actual innocence means factual innocence, not
mere legal insufficiency.” Bousley v. United
States, 523 U.S. 614, 623, 140 L. Ed. 2d 828, 118
S. Ct. 1604 (1998). “To be credible, such a claim
requires petitioner to support his allegations of
constitutional error with new reliable evidence - whether it be exculpatory scientific evidence,
trustworthy eyewitness accounts, or critical
physical evidence -- that was not presented at
trial.” Schlup, 513 U.S. at 324. The Court counseled however, that the actual innocence exception should “remain rare” and “only be applied
in the ‘extraordinary case.’” Id. at 321.

16a
Souter v. Jones, 395 F.3d 577, 590 (6th Cir. 2005).
Avery’s claim of actual innocence is not about presenting any new evidence that he did not actually commit
either the crime he pled guilty to in this Court or any of
the three predicate offenses used to enhance his sentence under the ACCA. Rather his argument goes to
the legal classification of those three prior offenses.
The Prior Convictions
The Report found that Avery had three prior convictions that qualified as predicate offenses under ACCA, (1) an August 2005 robbery conviction in the Clark
County Common Pleas Court, (2) an August 2005 conviction in the same court of felonious assault, and (3) a
2002 conviction for robbery in the Clark County Common Pleas Court. None of those convictions were found
by this Court at sentencing to be predicate offenses on
the basis of the residual clause.
As to the felonious assault conviction, the record
shows that Avery pled guilty to that offense under a
divisible sub-section of Ohio’s felonious assault statute
which requires proof of causing serious physical harm
to another (Report, ECF No. 56, PageID 281). As to
that particular statute, the Sixth Circuit has held its
violation is a violent felony within the meaning of ACCA. Id., citing United States v. Anderson, 695 F.3d 390
(6th Cir. 2012). Avery objects that Anderson has been
“effectively” overruled by Walter v. Kelly, 653 Fed.
Appx. 378 (6th Cir. 2016)(Objections, ECF No. 60-3,
PageID 296). The Magistrate Judge disagrees.
First of all, the felonious assault statute at issue in
Walter was Ohio Revised Code § 2903.11(a)(2), whereas
Avery was convicted under Ohio Revised Code §
2903.11(a)(1) which requires proof of actually causing

17a
serious physical harm to another. Anderson, supra,
was concerned with Ohio Revised Code § 2903.11(a)(1),
not (a)(2). Second, even if Walter were inconsistent
with Anderson, it would not in any way be overruled by
Walter because Anderson is a published opinion of the
circuit court and Walter is unpublished. In the Sixth
Circuit an unpublished opinion cannot overrule an earlier published opinion. United States v. Elbe, 774 F.3d
885, 891 (6th Cir. 2014); Darrah v. City of Oak Park,
255 F.3d 301, 309 (6th Cir. 2001); Salmi v. Secretary of
HHS, 774 F.2d 685, 689 (6th Cir. 1985); accord 6th Cir.
R. 206(c). A panel of the Sixth Circuit may not overrule
the published decision of another panel. Hinchman v.
Moore, 312 F.3d 198, 203 (6th Cir. 2002); Neuman v.
Rivers, 125 F.3d 315 (6th Cir. 1997). “[A] prior decision
remains controlling authority unless an inconsistent decision of the United States Supreme Court requires
modification of the decision or the Sixth Circuit sitting
en banc overrules the prior decision. Hinchman, 312
F.3d at 203.
Regarding the two prior robbery convictions, the
Report notes that Ohio Revised Code § 2911.02 defines
robbery in Ohio to include the use of force against another person (Report, ECF No. 56, PageID 278).
In its Answer the Government conceded that the
Court would not be able to tell from the relevant state
court records whether Avery’s earlier2 robbery conviction was under Ohio Revised Code § 2911.02(A)(1) or
(A)(2), and that an (A)(1) conviction would only have
qualified under the residual clause. However, the Government argued that because Avery bore the burden of
2

The 2005 robbery conviction clearly qualifies as a predicate
offense under the elements clause of ACCA.

18a
proof with respect to showing the conviction qualified
only under the residual clause and could not meet that
burden, the Section § 2255 Motion should be denied.
Avery responds that he should not have to bear the
burden of proof that the earlier robbery conviction only
qualified under the residual clause.
He cites first what he calls the plain language of
§ 2255 which requires further process unless, upon initial filing, the record “conclusively shows the prisoner
is entitled to no relief.” But this case was not dismissed
on initial review. Instead, as directed by the Sixth Circuit, the Court ordered the Government to file additions to the record and an answer, which it did. The
Report constitutes the Magistrate Judge’s recommendations as to findings of fact and conclusions of law as
required by the statute.
Avery relies on several cases which he argues entitle him to the benefit of the doubt with respect to
whether prior convictions qualified only under the residual clause (Objections, ECF No. 60-3, PageID 300,
citing Fugitt v. United States, 2016 U.S. Dist. LEXIS
131591 (W.D. Wash. 2016); Murray v. United States,
2015 U.S. Dist. LEXIS 156853 (W.D. Wash. 2015); Kilgore v. United States, 2016 U.S. Dist. LEXIS 170916
(W.D. Wash. 2016); and United States v. Ellingsworth,
2016 U.S. Dist. LEXIS 47974 (E.D. Wash. 2016)).
In Fugitt, the United States conceded that two of
the predicate offenses would not have qualified as such
after Johnson, but argued that Fugitt could not prove
the Government relied on the residual clause when he
was sentenced. The court decided:
When a sentencing court accepts a stipulation
that a defendant’s prior convictions constitute

19a
violent felonies under the ACCA, typically no
record exists explaining whether his prior convictions fit the elements clause, the enumerated offenses clause, or the residual clause. The
court makes the final determination, but the
parties evaluate the relationship between the
defendant’s prior convictions and the violent
felony clauses behind closed doors. The Court
has concluded that in the context of habeas review of an ACCA-enhanced sentence where the
defendant stipulated to his ACC classification,
the benefit of the doubt lies with the petitioner:
the Court presumes his predicate offenses only
satisfied the residual clause. See, e.g., Murray
v. United States, 15-cv-5720- RJB, 2015 U.S.
Dist. LEXIS 156853, 2015 WL 7313882, at *5
(W.D. Wash. Nov. 19, 2015) (applying the rule
of lenity in the petitioner’s favor where the
record was unclear why the defendant’s prior
convictions classified as violent felonies); Gibson, 2016 U.S. Dist. LEXIS 78815, 2016 WL
3349350, at *1-2 (following Murray and relying
on O’Neal to conclude that when “grave doubt”
exists about the constitutionality of the petitioner’s sentence, the reviewing court must
conclude the sentencing court relied on the residual clause).
Fugitt, at *10-11. Judge Leighton, who wrote the opinion in Fugitt, is a nationally-respected jurist and there
is nothing unlawful about giving the benefit of the
doubt to a petitioner in the circumstances Fugitt presented, which are quite parallel to those of Mr. Avery.
That is, Avery stipulated to his ACCA violent felony
priors and the Court had no occasion to make a finding

20a
on whether they qualified under the residual clause or
the elements clause of § 924.
But decisions of the District Court in the State of
Washington are not binding precedent on this Court
and Judge Leighton gives no particular reason why the
benefit of the doubt should shift to the § 2255 movant.
The fact is, Avery’s earlier robbery conviction could fall
under the elements clause and most likely did, because
it was a plea to a charge reduced from aggravated robbery. As noted in the Report, the burden of proof in a
§ 2255 proceeding is ordinarily on the movant and no
Sixth Circuit precedent compels us to shift that burden.
Avery next relies on In re Chance, 831 F.3d 1335
(11th Cir. 2016). That decision was not on the merits,
but merely granted Chance’s request to proceed on a
second motion, the same thing the Sixth Circuit did
here. The Chance panel criticized what a prior panel
had said in dictum, to wit, that the movant had to prove
he was sentenced under the residual clause. But it
ended up emphasizing that the district court had to decide the case de novo. Of course neither Chance nor the
In re Moore case it criticized is binding on this Court,
seeing as how they are decisions of the Eleventh Circuit Court of Appeals.
In addition to his “benefit of the doubt” argument,
Mr. Avery relies on his own statement that his earlier
robbery conviction was under Ohio Revised Code
§ 2911.02(A)(1) rather than § 2911.02(A)(2):
Petitioner states that he plead [sic] guilty to
section (A)(1), which the government admits
would only have qualified as a violent felony
under the residual clause. But both the government and the Magistriat [sic] argue that
this petitioner bears the burden of proving that

21a
his prior conviction was used by the federal
sentencing court under the now unconstitutional residual clause. But this circuit (and all
others) have stated that a petitioner’s allegations in a § 2255 petition are to be taken as
true.
(Objections, ECF No. 60-3, PageID 302, citing Ewing v.
United States, 651 Fed. Appx. 405 (6th Cir. 2016)).
The undersigned finds several difficulties with
these assertions.
First of all, Mr. Avery asks the Court to takes his
word for the statute of conviction when he offers no
corroboration at all. How does he remember? The
state court record does not reflect whether the conviction was under (A)(1) or (A)(2). It would hardly have
been important to Avery at the time – he or his attorney had just negotiated a charge reduction from aggravated robbery to simple robbery. The penalty was the
same for either subsection – the imprisonment provided
for a felony of the second degree, as opposed to a first
degree felony for aggravated robbery. It is inherently
incredible that a person convicted many times of felony
offenses would remember, fifteen or sixteen years after
the fact, the statutory subsection under which he was
convicted when the offense would have been labeled
“robbery” in either case. Of course, Mr. Avery’s claim
is also subject to the credibility factor that it has just
now become important for him to remember this fact;
he does not point to any documentation showing he
made this distinction at any time in the past.
The distinction does not appear in his Second § 2255
Motion. At page 6 of the Motion, he refers to his “convictions for robbery under O.R.C. § 2911.02” without
citing a subsection (ECF No. 48, PageID 189). Again in

22a
the body of the memorandum in support, he refers to
“neither of his robbery conviction[s] under Ohio Rivised [sic] statutes 2911.02” without stating a subsection. Id. at PageID 192. On the very next page he refers to “robbery under Ohio Revised Code § 2911.02”
without distinguishing the subsection. On the same
page he refers to robbery under Ohio Revised Code
§ 2911.02(A)(3), which clearly is not at issue. None of
the references to the robbery offenses of conviction
made in the Second § 2255 Motion as recently as September 29, 2016, make the distinction which Avery now
claims to remember, less than six months later. If the
Court were bound to accept as true the allegations
made in a § 2255 Motion, that would not assist Avery
because he does not make an assertion in the Motion
about which subsection was involved.
However, Ewing v. United States, cited by
Mr. Avery, does not require the Court to accept as true
a petitioner’s allegations in a § 2255 motion. Ewing,
which is not a published decision, cites the usual standard for granting an evidentiary hearing taken from
published opinions, particularly Smith v. United States,
348 F.3d 545 (6th Cir. 2003). But there is no occasion
for holding a hearing when the essential fact claim –
Avery’s claim to remember what subsection of Ohio
Revised Code § 2911.02 he was convicted under in 2001
or 2002 – is inherently incredible for the reasons given
above.
Conclusion
Upon reconsideration in light of the Objections, it is
again respectfully recommended that Mr. Avery’s Second § 2255 Motion be DISMISSED WITH PREJUDICE. Reasonable jurists could disagree with the conclusion that a person in Mr. Avery’s position is not enti-

23a
tled to the benefit of the doubt about whether an ambiguous prior conviction was or was not under a statute
that qualifies under ACCA after Johnson. Mr. Avery
should be granted a certificate of appealability on that
question, but otherwise denied such a certificate.
March 1, 2017.
s/ Michael R. Merz
United States Magistrate Judge
NOTICE REGARDING OBJECTIONS
Pursuant to Fed. R. Civ. P. 72(b), any party may
serve and file specific, written objections to the proposed findings and recommendations within fourteen
days after being served with this Report and Recommendations. Such objections shall specify the portions
of the Report objected to and shall be accompanied by a
memorandum of law in support of the objections. If the
Report and Recommendations are based in whole or in
part upon matters occurring of record at an oral hearing, the objecting party shall promptly arrange for the
transcription of the record, or such portions of it as all
parties may agree upon or the Magistrate Judge deems
sufficient, unless the assigned District Judge otherwise
directs. A party may respond to another party’s objections within fourteen days after being served with a
copy thereof. Failure to make objections in accordance
with this procedure may forfeit rights on appeal. See
United States v. Walters, 638 F.2d 947, 949-50 (6th Cir.
1981); Thomas v. Arn, 474 U.S. 140, 153-55 (1985).

25a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION AT DAYTON
Case No. 3:07-cr-205
(Also 3:16-cv-002)
UNITED STATES OF AMERICA,
Plaintiff,
v.
EDWIN ARTHUR AVERY,
Defendant.
District Judge Thomas M. Rose
Magistrate Judge Michael R. Merz
Filed December 28, 2016
REPORT AND RECOMMENDATIONS

This § 2255 case is before the Court on Defendant’s
[Second] Motion to Vacate (ECF No. 48). The Sixth
Circuit granted Defendant permission to file a second
or successive motion and transferred the case to this
Court. In re: Edwin Arthur Avery, Case No. 16-3566
(6th Cir. Sept. 29, 2016)(unpublished; copy at ECF No.
47.) The instant Motion is called hereinafter the “Second Motion” to distinguish it from Mr. Avery’s First
Motion to Vacate (ECF No. 41). The circuit court also
decided that “without an expansion of the record, it
cannot be determined whether Avery qualifies as an
armed career criminal after Johnson.” (ECF No. 47,

26a
PageID 183.) Accordingly the Court ordered the Government to file an Answer and it has done so (ECF No.
52). Mr. Avery has filed a Reply to the Answer (ECF
No. 55) and the case is therefore ripe for decision.
Defendant pleads the following grounds for relief:
Ground One: Petitioner’s convictions for robbery under Ohio Revised Code § 2911.02 & his
conviction under § 2903.11 are invalid by Johnson.
Supporting Facts: As fully explained in the
attached brief, Petitioner’s convictions for robbery under Ohio Revised Code § 2911.02 are no
longer crimes of violence after Johnson, 135 S.
Ct. 2251 (2015) because the crime can be accomplished without any physical force, but
force is necessary under the ACCA.
Ground Two: Petitioenr [sic] conviction for felonious assault is no longer a [sic] ACCA predicate offense after Johnson v. U.S., 135 S. Ct.
2551.
Supporting Facts: See attached brief.
(Second Motion, ECF No. 48, PageID 189.)
Procedural History
Edwin Avery was indicted by the grand jury for
this District on December 20, 2007, and charged in one
count with a violation of 18 U.S.C. §§ 922(g)(1) and
924(e) in that he was alleged to have possessed a firearm after having been convicted as follows:
(1) on or about August 8, 2005, Defendant Edwin Arthur Avery was convicted in the Court
of Common Pleas of Clark County, Ohio, in case

27a
number 05-cr-293, of robbery, in violation of
Ohio Revised Code section 2911.02;
(2) on or about August 8, 2005, Defendant Edwin Arthur Avery was convicted in the Court
of Common Pleas of Clark County, Ohio, in case
number 05-cr-539 of felonious assault, in violation of Ohio Revised Code section 2903.11;
(3) on or about January 4, 2002, Defendant
Edwin Arthur Avery was convicted in the
Court of Common Pleas of Clark County, Ohio,
in case number 01-cr-758, of trafficking in crack
cocaine, in violation of Ohio Revised Code section 2925.03;
(4) on or about January 4, 2002, Defendant
Edwin Arthur Avery was convicted in the
Court of Common Pleas of Clark County, Ohio
in case number 01-cr-578, of robbery, in violation of Ohio Revised Code section 2911.02;
(5) on or about March 14, 2000, Defendant
Edwin Arthur Avery was convicted in the
Court of Common Pleas of Clark County, Ohio
in case number 99-cr-611, of trafficking in crack
cocaine, in violation of Ohio Revised Code section 2925.03.
(Indictment, ECF No. 1, PageID 1-2.)
On June 6, 2008, Avery entered into a Plea Agreement with the United States in which he agreed to
plead guilty to Count One of the Indictment (Plea
Agreement, ECF No. 21). The plea was made pursuant
Fed. R. Crim. P. 11(c)(1)(C) and agreed that “the appropriate disposition of this case is a sentence of fifteen
(15) imprisonment …”, the mandatory minimum for the
offense to which he was pleading guilty. Id. at PageID

28a
37, ¶ 4. As part of the Plea Agreement, Mr. Avery
gave up his right to appeal unless the Court did not impose the agreed sentence and his “right to bring a postconviction collateral attack on the conviction or sentence.” Id. at PageID 39, ¶ 8.
After reviewing a Presentence Investigation Report (“PSR”) prepared by the Probation Department,
the Court imposed the agreed sentence (Judgment,
ECF No. 29), but Avery appealed anyway (ECF No.
31). The Sixth Circuit considered the case on the merits, but also ruled that the appeal waiver was valid.
United States v. Avery, Case No. 08-4271 (6th Cir. Aug.
21, 2009)(unpublished, copy at ECF No. 35).
Mr. Avery filed his First Motion to Vacate January
4, 2016 (ECF No. 41). On an original and supplemental
Report and Recommendations (ECF No. 42, 45), District Judge Rose on February 24, 2016, dismissed the
First Motion with prejudice and denied Mr. Avery a
certificate of appealability (ECF No. 46). Mr. Avery
took no appeal, but filed his Application for Leave to
File a Second or Successive Motion to Vacate with the
Sixth Circuit on May 23, 2016 (ECF No. 48). That court
granted leave on September 29, 2016. In re: Edwin Arthur Avery, Case No. 16-3566 (6th Cir. Sep. 29,
2016)(unpublished; copy at ECF No. 47).
The Sixth Circuit noted the Supreme Court’s recent decision in Welch v. United States, 136 S. Ct. 1257
(2016), in which that Court held its prior decision in
Johnson v. United States, 135 S. Ct. 2551, 2563 (2015),
announced a new substantive rule that has retroactive
effect in cases on collateral review. It noted that
the government does not dispute that Avery
has made a prima facie showing that he is entitled to relief from his ACCA sentence based on

29a
Johnson. In particular, two of the predicate offenses for Avery’s armed career criminal designation—convictions for robbery under Ohio
Revised Code § 2911.02—do not categorically
qualify as violent felonies without reference to
the residual clause. See United States v.
Torres, Nos. 15-3346, 15-3353, 2016 WL
1274536, at *6–8 (6th Cir. Apr. 1, 2016). And
the drug trafficking convictions identified by
the district court in its dismissal of Avery’s
first § 2255 motion were not counted as predicate offenses for his armed career criminal designation at the time of sentencing and appear to
be fourth-degree felonies that do not qualify as
“serious drug offense[s]” under the ACCA. See
18 U.S.C. § 924(e)(2)(A) (defining a “serious
drug offense” in relevant part as one for which
the maximum term of imprisonment is ten
years or more); Ohio Rev. Code §§
2925.03(C)(4)(b), 2929.14(A)(4).
(ECF No. 47, PageID 183.) Hence it directed this
Court to order an expansion of the record, which has
been done.
Analysis
Despite having conceded to the Sixth Circuit that
Mr. Avery had pled a prima facie case under Johnson,
the United States defends Avery’s conviction under the
Armed Career Criminal Act (“ACCA”). The ACCA is
codified at 18 U.S.C. § 924(e) and provides
(e)
(1) In the case of a person who violates section
922(g) of this title and has three previous convictions by
any court referred to in section 922(g)(1) of this title for

30a
a violent felony or a serious drug offense, or both,
committed on occasions different from one another,
such person shall be fined under this title and imprisoned not less than fifteen years, and, notwithstanding
any other provision of law, the court shall not suspend
the sentence of, or grant a probationary sentence to,
such person with respect to the conviction under section 922(g).
(2) As used in this subsection—
(A) the term “serious drug offense” means—
(i) an offense under the Controlled Substances Act
(21 U.S.C. 801 et seq.), the Controlled Substances Import and Export Act (21 U.S.C. 951 et seq.), or chapter
705 of title 46 for which a maximum term of imprisonment of ten years or more is prescribed by law; or
(ii) an offense under State law, involving manufacturing, distributing, or possessing with intent to manufacture or distribute, a controlled substance (as defined
in section 102 of the Controlled Substances Act (21
U.S.C. 802)), for which a maximum term of imprisonment of ten years or more is prescribed by law;
(B) the term “violent felony” means any crime punishable by imprisonment for a term exceeding one year,
or any act of juvenile delinquency involving the use or
carrying of a firearm, knife, or destructive device that
would be punishable by imprisonment for such term if
committed by an adult, that—
(i) has as an element the use, attempted use, or
threatened use of physical force against the person of
another; or
(ii) is burglary, arson, or extortion, involves use of
explosives, or otherwise involves conduct that pre-

31a
sents a serious potential risk of physical injury to another; and
(C) the term “conviction” includes a finding that a
person has committed an act of juvenile delinquency
involving a violent felony.
In Johnson, supra, the Supreme Court declared
the so-called residual clause of the ACCA, bold-faced
above, to be unconstitutionally vague. In Welch, supra,
it declared Johnson was to be applied retroactively to
cases on collateral review.
As the Sixth Circuit noted in the Transfer Order,
the sole question before it on Avery’s Application is
whether he had made “a prima facie showing that his
proposed claim relies on “a new rule of constitutional
law, made retroactive to cases on collateral review by
the Supreme Court, that was previously unavailable.”
(ECF No. 47, PageID 183.) The Government had conceded that a prima facie case had been pled, so the
Sixth Circuit would have had to rule against both litigants if it denied the Application.
After transfer, this Court is to consider the Second
Motion de novo. In re Embry, 831 F.3d 377 (6th Cir.
2016).
Does the Second Motion Raise the Same Claim Made
in the First Motion and Denied by this Court?
The United States seeks dismissal because, it asserts, the Second Motion raises the same claim made in
the First Motion and finally dismissed with prejudice
by this Court (Answer, ECF No. 52, PageID 211-12,
citing 28 U.S.C. § 2255(h) and 2244(b)(1)).
Avery does not deny that he is raising the same
Johnson claim in the Second Motion as he raised in the

32a
first, but contends that “section 2255 actually allows
such a claim under very specific circumstances.” (Reply, ECF No. 55, PageID 259.) Mr. Avery is correct
that § 2244(b)(1) applies only to petitions for writ of habeas corpus under § 2254, which the Second Motion is
not. He also correctly notes that § 2244(a) permits consideration of a claim made in a prior case “as provided
in section 2255.” Id. at PageID 260. Finally he notes
that § 2255(h)(2) allows a second or successive 2255 motion if a panel of the court of appeals finds it contains a
claim based on “(2) a new rule of constitutional law,
made retroactive to cases on collateral review by the
Supreme Court, that was previously unavailable.” In
the Transfer Order, the Sixth Circuit notes that the decision in Welch, holding Johnson was substantive and
therefore retroactive, was “recent.” Welch was decided
April 18, 2016, about a month after Avery filed his Application in the circuit court on May 23, 2016, and two
months after the First Motion was dismissed on February 24, 2016.
The question is whether a Johnson claim was “previously unavailable,” i.e. at the time the First Motion
was filed. Although Welch had not yet been decided,
the Sixth Circuit had decided on December 17, 2015,
before Avery filed his First Motion, that Johnson had
announced a new rule of constitutional law not previously available. In re: Windy Watkins, 810 F.3d 375
(6th Cir. 2015). In deciding the First Motion, this Court
treated Johnson as retroactively applicable on collateral review (See Report, ECF No. 42). In fact, the
First Motion is entirely based on Johnson.
The Supreme Court has held that “Congress enacted [the] AEDPA [including adopting § 2255(h)] to reduce delays in the execution of state and federal criminal sentences, … and to further the principles of comi-

33a
ty, finality, and federalism.” Woodford v. Garceau, 538
U.S. 202 (2003); Ryan v. Gonzales, U.S. , 133 S. Ct. 696,
184 L. Ed. 2d 528 (2013), citing Woodford. At common
law a judgment denying a writ of habeas corpus had no
res judicata effect and the petition could be resubmitted to as many judges as one could find. While
not enacting a res judicata rule for § 2255 motions,
Congress plainly intended that there be finality of determination of claims, while allowing newly-available
claims to be presented if the Supreme Court made
them available. But Avery’s Johnson claim was fully
available to him when he filed the First Motion and was
in fact litigated and not appealed. Avery’s Second Motion should therefore be dismissed as a re-filing of the
same claim made in the First Motion.
Waiver of Right to Collateral Attack
As noted above, when he entered into the Plea
Agreement, Avery gave up his right to make a collateral post-conviction attack on the judgment (Plea
Agreement, ECF No. 21, PageID 39, ¶ 8). A defendant
who has knowingly, intelligently, and voluntarily
agreed not to contest his sentence in any postconviction proceeding has waived the right to file a §
2255 motion. Davila v. United States, 258 F.3d 448, 451
(6th Cir. 2001). This waiver also precludes attacks
based on new law, e.g., claims under Johnson v. United
States. In re: Garner, Case No. 16-1655, 2016 U.S. App.
LEXIS 19996 (6th Cir. Nov. 2, 2016).
The Magistrate Judge relied in part on the waiver
when recommending dismissal of Avery’s First Motion
(See Report and Recommendations, ECF No. 42, PageID 165). Avery objected that he was not attacking the
conviction, but pointing out that there was a new mandatory minimum sentence applicable to his conviction

34a
(Objections, ECF No. 43, PageID 169). In a Supplemental Report and Recommendations, the Magistrate
Judge rejected this argument by noting that the mandatory minimum sentence for an ACCA violation was still
fifteen years and the First Motion was “undoubtedly a
collateral attack on his sentence and is therefore barred
by the Plea Agreement.” (ECF No. 45, PageID 177.)
Avery filed no objections to the Supplemental Report. The failure to file specific objections is a waiver of
right to raise issues on appeal. Alspaugh v. McConnell,
643 F.3d 162, 166 (6th Cir. 2011); Cowherd v. Million,
380 F.3d 909, 912 (6th Cir. 2004); Miller v. Currie, 50
F.3d 373, 380 (6th Cir. 1995); United States v. Walters,
638 F.2d 947 (6th Cir. 1981); Mattox v. City of Forest
Park, 183 F.3d 515, 519 (6th Cir. 1999); Thomas v. Arn,
474 U.S. 140 (1985).
In the absence of Objections, Judge Rose adopted
the Supplemental Report (ECF No. 46). Mr. Avery
took no appeal. Although this Court had denied him a
certificate of appealability, he was free to ask the Court
of Appeals to grant such a certificate, but he did not do
so. Thus the validity of Avery’s waiver of collateral review is now the law of the case.
Under the doctrine of law of the case, findings
made at one point in the litigation become the law of
the case for subsequent stages of that same litigation.
United States v. Moored, 38 F. 3d 1419, 1421 (6th Cir.
1994), citing United States v. Bell, 988 F.2d 247, 250
(1st Cir. 1993). “As most commonly defined, the doctrine [of law of the case] posits that when a court decides upon a rule of law, that decision should continue
to govern the same issues in subsequent stages in the
same case.” Arizona v. California, 460 U.S. 605, 618
(1983), citing 1B Moore’s Federal Practice ¶0.404

35a
(1982); Patterson v. Haskins, 470 F.3d 645, 660-61 (6th
Cir. 2006); United States v. City of Detroit, 401 F.3d
448, 452 (6th Cir. 2005). “While the ‘law of the case’
doctrine is not an inexorable command, a decision of a
legal issue establishes the ‘law of the case’ and must be
followed in all subsequent proceedings in the same case
in the trial court or on a later appeal in the appellate
court, unless the evidence on a subsequent trial was
substantially different, controlling authority has since
made a contrary decision of the law applicable to such
issues, or the decision was clearly erroneous and would
work a manifest injustice.” White v. Murtha, 377 F.2d
428 (5th Cir. 1967), quoted approvingly in Association
of Frigidaire Model Makers v. General Motors Corp.,
51 F.3d 271 (6th Cir. 1995). The purpose of the doctrine
is twofold: (1) to prevent the continued litigation of settled issues; and (2) to assure compliance by inferior
courts with the decisions of superior courts. United
States v. Todd, 920 F.2d 399 (6th Cir. 1990), citing
Moore’s Federal Practice.
Mr. Avery attempts to overcome this prior decision
by arguing that he is actually innocent of violating the
ACCA and therefore this “court was without jurisdiction to sentence him.” (Second Motion, ECF No. 48,
PageID 196.)
For that proposition, he relies first on Gomez v.
United States, 490 U.S. 858 (1989), where the Supreme
Court reversed a conviction obtained at a trial where a
United States Magistrate1 presided over voir dire and
jury selection without the consent of the parties. The
1

The judicial officer in question held the same office as the
undersigned under 28 U.S.C. § 636, et seq. The title of the office
was changed to United States Magistrate Judge shortly after
Gomez was decided.

36a
Court held that those functions were not authorized to
be delegated to a federal magistrate in a felony case
without the consent of the parties. Judgment in this
case was imposed by District Judge Thomas Rose, appointed by the President under Article III of the Constitution. There is no question that District Judges
have the authority to impose felony sentences and
Gomez suggests nothing to the contrary.
Mr. Avery next cites McGrath v. Kristensen, 340
U.S. 162 (1950). There the Government had claimed
federal courts had no jurisdiction to consider the Attorney General’s suspension of deportation proceedings
because that was not a justiciable question under Article III. While permitting the issue to be raised, the
Court found it was without merit.
Avery cites
McGrath for the proposition that “subject matter jurisdiction questions can be raised at any time … (ECF No.
48, PageID 196.) While that is true, McGrath provides
no basis for finding a lack of subject matter jurisdiction
here. United States District Courts have exclusive
original subject matter jurisdiction over federal criminal cases. That has been true since the Judiciary Act of
1789 when the First Congress decided the point.
Finally, Mr. Avery cites California v. La Rue, 409
U.S. 109 (1972), for the unremarkable proposition that
jurisdiction cannot be conferred on a federal court by
consent, stipulation, or action. Again, nothing in La
Rue suggests this Court did not have jurisdiction over
the subject matter of this case.
More critically, Mr. Avery cites no case which even
begins to suggest that a post- conviction showing of actual innocence deprives a sentencing court of subject
matter jurisdiction. The actual innocence doctrine has
been recognized by the Supreme Court only as a means

37a
of avoiding a procedural default in a habeas corpus
case. McQuiggin v. Perkins, 569 U.S. ___, 133 S. Ct.
1924, 185 L. Ed. 2d 1019 (2013). Avery relies on United
States v. Gray, 2016 U.S. Dist. LEXIS 6753 (E.D.
Wash. Jan. 19, 2016), where the § 2255 petitioner characterized his situation, as does Avery here, of being
“actually innocent” of the ACCA conviction because the
predicate offenses no longer qualify. That is a colorable
argument, but it does not speak to the jurisdictional
claim. And in Gray the government did not seek to enforce a collateral review waiver.
The Predicate Offenses
In his Second Motion, Mr. Avery asserts that, in
light of Johnson, he no longer has three qualifying
predicate offenses under the ACCA. He challenges
here his convictions for robbery under Ohio Revised
Code § 2911.02 and felonious assault under Ohio Revised Code § 2901.11.2
The Robbery Convictions
The two robbery convictions counted as qualifying
predicate offenses were (1) an August 8, 2005, conviction for robbery in violation of Ohio Revised Code §
2911.02 in the Clark County Common Pleas Court and
(2) a January 4, 2002, conviction for robbery under the
same statute and in the same court (Indictment, ECF
No. 1, PageID 1-2).

2

In deciding the First Motion, the Magistrate Judge also relied on two drug convictions. The United States concedes that
those do not qualify under the ACCA as “serious drug offenses.”
(Answer, ECF No. 52, PageID 210, n. 5.) Accordingly, no further
analysis is made of those convictions.

38a
Ohio Revised Code § 2911.02 defines robbery as including the following elements: (1) infliction, attempting to inflict, or threatening to inflict physical harm on
another person or (2) the use or threatened immediate
use of force against another. Thus the Ohio crime of
robbery fits squarely within the so-called “elements” or
“force” clause of the ACCA because it “has as an element the use, attempted use, or threatened use of physical force against the person of another.” There was no
need to resort to the unconstitutional residual clause of
the ACCA to find that these two robbery convictions
were qualifying predicate offenses.
Avery argues these two convictions should not be
counted because the so-called “categorical approach”
must be used in determining whether an offense qualifies as a violent felony (Second Motion, ECF No. 48,
PageID 192, citing Descamps v. United States, 133 S.
Ct. 2276, 2281 (2013)). Moreover, he claims, force does
not qualify unless it is violent force. Id. citing Johnson
v. United States, 559 U.S. 133 (2010).
This argument has nothing to do with the 2015
Johnson case declaring the residual clause unconstitutional because, as the Magistrate Judge put it summarily in the original Report and Recommendations on the
First Motion, Avery was not convicted under the residual clause. In other words, Avery is not pleading a 2015
Johnson claim, but a Descamps claim or a 2010 Johnson
claim. Avery was convicted before Descamps was decided. If Descamps were applicable retroactively to
collateral attacks, then Avery’s deadline for filing an
attack under Descamps would have been one year after
it was decided, or June 20, 2014. But he did not file his
First Motion until November 13, 2015 (ECF No. 38).
And Descamps is not retroactively applicable. Zemba
v. Farley, 2015 U.S. App. LEXIS 12430 (6th Cir. 2015);

39a
In re Black, 2014 U.S. App. LEXIS 15452 (6th Cir.
2014); Headbird v. United States, 813 F.3d 1092 (8th
Cir. 2016). The same responses apply to any claim under the 2010 Johnson case except that it is three years
older than Descamps. The 2015 Johnson decision on
the residual clause did not resurrect possible claims
based on earlier interpretations of the ACCA.
In the Transfer Order, the Sixth Circuit refers to
United States v. Torres, 644 Fed. Appx. 663 (6th Cir.
Apr. 1, 2016). Torres co-Defendant Turner appealed his
ACCA conviction in part because his conviction under
Ohio Revised Code § 2911.02 had been classified as a
prior violent felony under the residual clause which
Johnson 2015 had eliminated. Because the parties disagreed on whether Turner had been convicted under
Ohio Revised Code § 2911.02(A)(1) or (A)(3) and the
Court of Appeals could not resolve the issue on the
documents before it, it remanded the case for that determination, just as the Sixth Circuit did here.
In its Answer, the United States concedes that this
Court will not be able to tell from the state court record
whether Avery’s 2001 robbery conviction was under
Ohio Revised Code § 2911.02(A)(1) or (2)(ECF No. 52,
PageID 216-18). Presumably this is because Avery was
originally indicted for aggravated robbery with the use
of a firearm and was permitted to plead guilty to the
lesser-included robbery offense without specification of
the statute involved (See Plea, at ECF No. 52, PageID
222). The Government concedes further that a conviction under (A)(1) would qualify only under the residual
clause Because Avery bears the burden of proof on his
Second Motion and cannot prove Court reliance on the
residual clause, the Government argues the Motion
should be denied. Id., citing Pough v. United States,
442 F.3d 959 (6th Cir. 2006); McQueen v. United States,

40a
58 Fed. Appx. 73 (6th Cir. 2003); In re: Moore, 830 F.3d
1268 (11th Cir. 2016); and Stanley v. United States, 827
F.3d 562 (7th Cir. 2016).
Avery responds that the burden of proving the validity of the conviction should be on the United States,
relying on United States v. Torres, 644 Fed. Appx. 663
(6th Cir. 2016). Torres, however, was a direct appeal
case and it clearly would be part of the Government’s
burden at trial to prove beyond a reasonable doubt that
the predicate offenses qualified. If Avery had contested
the qualification of the robberies as predicate offenses,
Torres supports the unremarkable proposition that the
Government would have had to prove they qualified.
Even if he had not contested the qualification, Torres
supports the further proposition that the claim could be
upheld on appeal as plain error. But that is not what
happened here. Avery admitted these predicate offenses were violent felonies and did not contest their classification that way in the PSR. Nor did he raise that
claimed error on appeal. The first time he made the
claim was in his First Motion and he repeats it now in
the Second Motion. It is well established that on a §
2255 motion, the burden of proving entitlement to relief
is on the § 2255 movant. Pough v. United States, 442
F.3d 959, 964 (6th Cir. 2006); McQueen v. United States,
58 Fed. Appx. 73 (6th Cir. 2003).
The Felonious Assault Conviction
Another prior conviction counted against Avery as
a qualifying predicate offense was his conviction for felonious assault in violation of Ohio Revised Code
§ 2903.11 in the Clark County Common Pleas Court on
August 8, 2005 (Indictment, ECF No. 1). Avery argues
now, although he did not at the time of conviction or on
direct appeal, that his felonious assault conviction does

41a
not qualify because it does not require “serious physical
harm.” (ECF No. 48, PageID 195.)
Avery argues that Ohio Revised Code
§ 2903.11(A)(2) requires only some harm or attempt to
cause harm (ECF No. 48, PageID 195). However, the
record shows that Avery pled guilty to violating Ohio
Revised Code § 2903.11(A)(1) which requires proof of
causing serious physical harm to another (See Plea at
ECF No. 52-6, PageID 249). The Sixth Circuit, applying the categorical approach, has held that felonious assault in violation of Ohio Revised Code § 2903.11(A)(1)
is a violent felony within the meaning of the ACCA.
United States v. Anderson, 695 F.3d 390 (6th Cir. 2012).
Avery attempts to distinguish Anderson because it
was decided before Descamps, Johnson 2015, Mathis v.
United States, 579 U.S. ___, 136 S. Ct. 2243, 195 L. Ed.
2d 604, 610 (June 23, 2016), and Walter v. Kelly, 2016
U.S. App. LEXIS 11634 (6th Cir. Jun 22, 2016). However, he offers no analysis of how any of those cases
render Anderson bad law. Walter in particular does not
consider whether felonious assault under Ohio Revised
Code § 2903.11 is a violent felony for ACCA purposes,
although its analysis is consistent with that conclusion.
Conclusion
Because this Court has already held in an unappealed judgment that Avery has waived collateral review of his conviction and sentence, the Second Motion
to Vacate should be DISMISSED WITH PREJUDICE. Because this Court has already determined
Avery’s Johnson 2015 claim against him on the merits,
that claim should be DISMISSED WITH PREJUDICE on this alternative grounds. Finally, Avery has
not established the merits of his Johnson 2015 claim as

42a
to the predicate offenses counted against him and the
Second Motion should be DISMISSED WITH PREJUDICE on that basis as well. Because reasonable jurists would not disagree with this conclusion, Petitioner
should be denied a certificate of appealability and the
Court should certify to the Sixth Circuit that any appeal would be objectively frivolous and therefore
should not be permitted to proceed in forma pauperis.
December 28, 2016.
s/ Michael R. Merz
United States Magistrate Judge
NOTICE REGARDING OBJECTIONS
Pursuant to Fed. R. Civ. P. 72(b), any party may
serve and file specific, written objections to the proposed
findings and recommendations within fourteen days after being served with this Report and Recommendations. Pursuant to Fed. R. Civ. P. 6(d), this period is extended to seventeen days because this Report is being
served by mail. Such objections shall specify the portions of the Report objected to and shall be accompanied
by a memorandum of law in support of the objections. If
the Report and Recommendations are based in whole or
in part upon matters occurring of record at an oral hearing, the objecting party shall promptly arrange for the
transcription of the record, or such portions of it as all
parties may agree upon or the Magistrate Judge deems
sufficient, unless the assigned District Judge otherwise
directs. A party may respond to another party’s objections within fourteen days after being served with a
copy thereof. Failure to make objections in accordance
with this procedure may forfeit rights on appeal. See
United States v. Walters, 638 F.2d 947, 949-50 (6th Cir.
1981); Thomas v. Arn, 474 U.S. 140, 153-55 (1985).

43a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 16-3566
Filed September 29, 2016
IN RE: EDWIN ARTHUR AVERY,
Movant,
ORDER
Before: BATCHELDER, MOORE, and DONALD,
Circuit Judges.
Edwin Arthur Avery, a federal prisoner proceeding pro se, moves for an order authorizing the district
court to consider a second or successive motion to vacate, set aside, or correct his sentence under 28 U.S.C.
§ 2255. See 28 U.S.C. §§ 2244(b), 2255(h). Avery, who
was sentenced under the Armed Career Criminal Act
(ACCA), seeks to challenge his sentence under Johnson v. United States, 135 S. Ct. 2551, 2563 (2015), in
which the Supreme Court invalidated the ACCA’s residual clause as unconstitutionally vague. The government agrees that the motion should be granted.
In 2008, Avery pleaded guilty to being a felon in
possession of a firearm, in violation of 18 U.S.C.
§ 922(g). The district court determined that Avery
qualified as an armed career criminal based on his two
prior Ohio convictions for robbery and one for felonious
assault and sentenced him to 180 months of imprison-

44a
ment, the minimum sentence mandated by the ACCA.
See 18 U.S.C. § 924(e)(1). This court affirmed.
In January 2016, Avery filed a § 2255 motion in the
district court, seeking relief from his ACCA sentence
based on Johnson. The district court summarily dismissed the motion, concluding that Avery in fact had
five qualifying predicate offenses, not just three, none
of which depended on the residual clause. Avery did
not appeal. Avery filed this request, for authorization
to file a second or successive § 2255 motion in May 2016.
We may authorize the filing of a second or successive § 2255 motion when the applicant makes a prima
facie showing that his proposed claim relies on “a new
rule of constitutional law, made retroactive to cases on
collateral review by the Supreme Court, that was previously unavailable.” 28 U.S.C. § 2255(h)(2). The Supreme Court recently held that Johnson announced a
new, “substantive rule that has retroactive effect in
cases on collateral review.” Welch v. United States, 136
S. Ct. 1257, 1268 (2016). And the government does not
dispute that Avery has made a prima facie showing
that he is entitled to relief from his ACCA sentence
based on Johnson. In particular, two of the predicate
offenses for Avery’s armed career criminal designation—convictions for robbery under Ohio Revised Code
§ 2911.02—do not categorically qualify as violent felonies without reference to the residual clause. See United States v. Torres, Nos. 15-3346, 15-3353, 2016 WL
1274536, at *6–8 (6th Cir. Apr. 1, 2016). And the drug
trafficking convictions identified by the district court in
its dismissal of Avery’s first § 2255 motion were not
counted as predicate offenses for his armed career
criminal designation at the time of sentencing and appear to be fourth-degree felonies that do not qualify as
“serious drug offense[s]” under the ACCA. See 18

45a
U.S.C. § 924(e)(2)(A) (defining a “serious drug offense”
in relevant part as one for which the maximum term of
imprisonment is ten years or more); Ohio Rev. Code §§
2925.03(C)(4)(b), 2929.14(A)(4). Accordingly, without
an expansion of the record, it cannot be determined
whether Avery qualifies as an armed career criminal
after Johnson.
For these reasons, we GRANT Avery’s motion,
AUTHORIZE the district court to consider his proposed § 2255 application, and TRANSFER the case to
the United States District Court for the Southern District of Ohio for further proceedings.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

47a
APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 17-3628
Filed September 4, 2019
EDWIN ARTHUR AVERY,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.
ORDER
BEFORE: COOK and LARSEN, Circuit Judges.*
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for rehearing and concludes that the issues raised in the petition
were fully considered upon the original submission and
decision of the case. The petition then was circulated to
the full court. No judge has requested a vote on the
suggestion for rehearing en banc.
Therefore, the petition is denied.
ENTERED BY ORDER OF THE COURT

* The third member of this panel, Judge Damon J. Keith, died
on April 28, 2019. This order is entered by the quorum of the panel
28.U.S.C. § 46(d).

48a

Deborah S. Hunt, Clerk

49a
APPENDIX G
RELEVANT STATUTORY PROVISIONS
28 U.S.C. § 2244
§ 2244. Finality of determination
(a) No circuit or district judge shall be required to entertain an application for a writ of habeas corpus to inquire into the detention of a person pursuant to a
judgment of a court of the United States if it appears
that the legality of such detention has been determined
by a judge or court of the United States on a prior application for a writ of habeas corpus, except as provided
in section 2255.
(b)(1) A claim presented in a second or successive habeas corpus application under section 2254 that was
presented in a prior application shall be dismissed.
(2) A claim presented in a second or successive habeas
corpus application under section 2254 that was not presented in a prior application shall be dismissed unless—
(A) the applicant shows that the claim relies on a
new rule of constitutional law, made retroactive to
cases on collateral review by the Supreme Court,
that was previously unavailable; or
(B)(i) the factual predicate for the claim could not
have been discovered previously through the exercise of due diligence; and
(ii) the facts underlying the claim, if proven and
viewed in light of the evidence as a whole, would be
sufficient to establish by clear and convincing evidence that, but for constitutional error, no reasona-

50a
ble factfinder would have found the applicant guilty
of the underlying offense.
(3)(A) Before a second or successive application permitted by this section is filed in the district court, the
applicant shall move in the appropriate court of appeals
for an order authorizing the district court to consider
the application.
(B) A motion in the court of appeals for an order authorizing the district court to consider a second or successive application shall be determined by a threejudge panel of the court of appeals.
(C) The court of appeals may authorize the filing of a
second or successive application only if it determines
that the application makes a prima facie showing that
the application satisfies the requirements of this subsection.
(D) The court of appeals shall grant or deny the authorization to file a second or successive application not later than 30 days after the filing of the motion.
(E) The grant or denial of an authorization by a court of
appeals to file a second or successive application shall
not be appealable and shall not be the subject of a petition for rehearing or for a writ of certiorari.
(4) A district court shall dismiss any claim presented in
a second or successive application that the court of appeals has authorized to be filed unless the applicant
shows that the claim satisfies the requirements of this
section.
(c) In a habeas corpus proceeding brought in behalf of a
person in custody pursuant to the judgment of a State
court, a prior judgment of the Supreme Court of the
United States on an appeal or review by a writ of certiorari at the instance of the prisoner of the decision of

51a
such State court, shall be conclusive as to all issues of
fact or law with respect to an asserted denial of a Federal right which constitutes ground for discharge in a
habeas corpus proceeding, actually adjudicated by the
Supreme Court therein, unless the applicant for the
writ of habeas corpus shall plead and the court shall
find the existence of a material and controlling fact
which did not appear in the record of the proceeding in
the Supreme Court and the court shall further find that
the applicant for the writ of habeas corpus could not
have caused such fact to appear in such record by the
exercise of reasonable diligence.
(d)(1) A 1-year period of limitation shall apply to an application for a writ of habeas corpus by a person in custody pursuant to the judgment of a State court. The
limitation period shall run from the latest of—
(A) the date on which the judgment became final
by the conclusion of direct review or the expiration
of the time for seeking such review;
(B) the date on which the impediment to filing an
application created by State action in violation of
the Constitution or laws of the United States is
removed, if the applicant was prevented from filing
by such State action;
(C) the date on which the constitutional right asserted was initially recognized by the Supreme
Court, if the right has been newly recognized by
the Supreme Court and made retroactively applicable to cases on collateral review; or
(D) the date on which the factual predicate of the
claim or claims presented could have been discovered through the exercise of due diligence.

52a
(2) The time during which a properly filed application
for State post-conviction or other collateral review with
respect to the pertinent judgment or claim is pending
shall not be counted toward any period of limitation under this subsection.

53a
28 U.S.C. § 2254
§ 2254. State custody; remedies in Federal courts
(a) The Supreme Court, a Justice thereof, a circuit
judge, or a district court shall entertain an application
for a writ of habeas corpus in behalf of a person in custody pursuant to the judgment of a State court only on
the ground that he is in custody in violation of the Constitution or laws or treaties of the United States.
(b)(1) An application for a writ of habeas corpus on behalf of a person in custody pursuant to the judgment of
a State court shall not be granted unless it appears
that—
(A) the applicant has exhausted the remedies
available in the courts of the State; or
(B)(i) there is an absence of available State corrective process; or
(ii) circumstances exist that render such process
ineffective to protect the rights of the applicant.
(2) An application for a writ of habeas corpus may be
denied on the merits, notwithstanding the failure of the
applicant to exhaust the remedies available in the
courts of the State.
(3) A State shall not be deemed to have waived the exhaustion requirement or be estopped from reliance upon the requirement unless the State, through counsel,
expressly waives the requirement.
(c) An applicant shall not be deemed to have exhausted
the remedies available in the courts of the State, within
the meaning of this section, if he has the right under
the law of the State to raise, by any available procedure, the question presented.

54a
(d) An application for a writ of habeas corpus on behalf
of a person in custody pursuant to the judgment of a
State court shall not be granted with respect to any
claim that was adjudicated on the merits in State court
proceedings unless the adjudication of the claim—
(1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly established Federal law, as determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.
(e)(1) In a proceeding instituted by an application for a
writ of habeas corpus by a person in custody pursuant
to the judgment of a State court, a determination of a
factual issue made by a State court shall be presumed
to be correct. The applicant shall have the burden of
rebutting the presumption of correctness by clear and
convincing evidence.
(2) If the applicant has failed to develop the factual basis of a claim in State court proceedings, the court shall
not hold an evidentiary hearing on the claim unless the
applicant shows that—
(A) the claim relies on—
(i) a new rule of constitutional law, made retroactive to cases on collateral review by the Supreme Court, that was previously unavailable;
or
(ii) a factual predicate that could not have been
previously discovered through the exercise of
due diligence; and

55a
(B) the facts underlying the claim would be sufficient to establish by clear and convincing evidence
that but for constitutional error, no reasonable factfinder would have found the applicant guilty of the
underlying offense.
(f) If the applicant challenges the sufficiency of the evidence adduced in such State court proceeding to support the State court’s determination of a factual issue
made therein, the applicant, if able, shall produce that
part of the record pertinent to a determination of the
sufficiency of the evidence to support such determination. If the applicant, because of indigency or other
reason is unable to produce such part of the record,
then the State shall produce such part of the record and
the Federal court shall direct the State to do so by order directed to an appropriate State official. If the
State cannot provide such pertinent part of the record,
then the court shall determine under the existing facts
and circumstances what weight shall be given to the
State court’s factual determination.
(g) A copy of the official records of the State court, duly
certified by the clerk of such court to be a true and correct copy of a finding, judicial opinion, or other reliable
written indicia showing such a factual determination by
the State court shall be admissible in the Federal court
proceeding.
(h) Except as provided in section 408 of the Controlled
Substances Act, in all proceedings brought under this
section, and any subsequent proceedings on review, the
court may appoint counsel for an applicant who is or
becomes financially unable to afford counsel, except as
provided by a rule promulgated by the Supreme Court
pursuant to statutory authority. Appointment of coun-

56a
sel under this section shall be governed by section
3006A of title 18.
(i) The ineffectiveness or incompetence of counsel during Federal or State collateral post-conviction proceedings shall not be a ground for relief in a proceeding arising under section 2254.

57a
28 U.S.C. § 2255
§ 2255. Federal custody; remedies on motion attacking
sentence
(a) A prisoner in custody under sentence of a court established by Act of Congress claiming the right to be
released upon the ground that the sentence was imposed in violation of the Constitution or laws of the
United States, or that the court was without jurisdiction to impose such sentence, or that the sentence was
in excess of the maximum authorized by law, or is otherwise subject to collateral attack, may move the court
which imposed the sentence to vacate, set aside or correct the sentence.
(b) Unless the motion and the files and records of the
case conclusively show that the prisoner is entitled to
no relief, the court shall cause notice thereof to be
served upon the United States attorney, grant a
prompt hearing thereon, determine the issues and
make findings of fact and conclusions of law with respect thereto. If the court finds that the judgment was
rendered without jurisdiction, or that the sentence imposed was not authorized by law or otherwise open to
collateral attack, or that there has been such a denial or
infringement of the constitutional rights of the prisoner
as to render the judgment vulnerable to collateral attack, the court shall vacate and set the judgment aside
and shall discharge the prisoner or resentence him or
grant a new trial or correct the sentence as may appear
appropriate.
(c) A court may entertain and determine such motion
without requiring the production of the prisoner at the
hearing.

58a
(d) An appeal may be taken to the court of appeals from
the order entered on the motion as from a final judgment on application for a writ of habeas corpus.
(e) An application for a writ of habeas corpus in behalf
of a prisoner who is authorized to apply for relief by
motion pursuant to this section, shall not be entertained
if it appears that the applicant has failed to apply for
relief, by motion, to the court which sentenced him, or
that such court has denied him relief, unless it also appears that the remedy by motion is inadequate or ineffective to test the legality of his detention.
(f) A 1-year period of limitation shall apply to a motion
under this section. The limitation period shall run from
the latest of—
(1) the date on which the judgment of conviction
becomes final;
(2) the date on which the impediment to making a
motion created by governmental action in violation
of the Constitution or laws of the United States is
removed, if the movant was prevented from making a motion by such governmental action;
(3) the date on which the right asserted was initially recognized by the Supreme Court, if that right
has been newly recognized by the Supreme Court
and made retroactively applicable to cases on collateral review; or
(4) the date on which the facts supporting the claim
or claims presented could have been discovered
through the exercise of due diligence.
(g) Except as provided in section 408 of the Controlled
Substances Act, in all proceedings brought under this
section, and any subsequent proceedings on review, the
court may appoint counsel, except as provided by a rule

59a
promulgated by the Supreme Court pursuant to statutory authority. Appointment of counsel under this section shall be governed by section 3006A of title 18.
(h) A second or successive motion must be certified as
provided in section 2244 by a panel of the appropriate
court of appeals to contain—
(1) newly discovered evidence that, if proven and
viewed in light of the evidence as a whole, would be
sufficient to establish by clear and convincing evidence that no reasonable factfinder would have
found the movant guilty of the offense; or
(2) a new rule of constitutional law, made retroactive to cases on collateral review by the Supreme
Court, that was previously unavailable.

